HHS/OIG-Audit--"Maryland's Ombudsman Program for Processing Elder Abuse and Neglect Complaints and Accuracy of Geriatric Nurse Aide Registry" (A-12-96-00016)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Maryland's Ombudsman Program for Processing Elder Abuse and
Neglect Complaints and Accuracy of Geriatric Nurse Aide Registry," (A-12-96-00016)
November 28, 1997
Complete Text of Report is available in PDF format (2.3
mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Ombudsmen play an important role in helping to ensure that the elderly are
properly cared for and protected from abuse in long term care facilities. In
Maryland's Montgomery County, however, we found that the review and reporting
network did not provide reasonable assurance that instances of abuse occurring
in long term care facilities were properly reported and resolved. Similar deficiencies
were found in other counties but to a lesser degree. We also found that the
State Ombudsman had not conducted annual monitoring reviews of local Ombudsman
programs. Finally, we found that the Geriatric Nurse Aide (GNA) Registry, which
is supposed to record the history of nurse aide abuses, did not always record
such information on individuals who were found to have abused residents of nursing
homes. Among other things, we recommended that Maryland's Office on Aging (OoA)
take action to: (1) improve the GNA Registry to include information on findings
of abuse, neglect, or misappropriation of property by a GNA, (2) improve procedures
used to receive, investigate and resolve complaints timely, and (3) make the
required annual monitoring visits of local Ombudsman programs. The OoA agreed
with our recommendations and stated they will work diligently to implement them.